                                                NATIONAL SCIENCE FOUNDATION
                                                 OFFICE OF INSPECTOR GENERAL
                                                   OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

Case Number: 113010001                                                                   Page 1 of 1



         NSF OIG received information alleging research misconduct and financial fraud by a PI 1 on NSF
         awards 2 at a University3 .

         Financial records and documents were reviewed and analyzed and no evidence was found to
         substantiate the allegations.

         Accordingly, this case is closed.




NSF OIG Form 2 (11102)
